U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: James Warner v. United States of America,
S.Ct. No. 20-243
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 13,
2021, and placed on the docket on August 18, 2021. The government’s response is due on
September 17, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 18, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0243
WARNER, JAMES
USA

HAROLD GUREWITZ
GUREWITZ & RABEN, PLC
333 W. FORT STREET,
SUITE 1400
DETROIT, MI 48226
313-628-4733
HGUREWITZ@GRPLC.COM

